               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




        Mail Verification Procedures at
             Detached Mail Units

                       Audit Report




                                              January 12, 2012

Report Number MS-AR-12-002
                                                                         January 12, 2012

                                              Mail Verification Procedures at Detached
                                                                             Mail Units

                                                          Report Number MS-AR-12-002



IMPACT ON:
Detached mail units (DMUs) and                 the interim while mailers continue
business mailers who present mailings          implementing Intelligent Mail barcode
at DMUs.                                       technologies and continue on-going mail
                                               verification training efforts while DMU
WHY THE OIG DID THE AUDIT:                     employees continue to use manual mail
Our objective was to evaluate mail             verification processes. We also
verification procedures at DMUs for            recommended that management
Standard and First-Class Mail®. A DMU          enhance automated systems to notify
is an on-site acceptance unit at the           managers when acceptance employees
mailer/mailing agent’s production facility.    override Mail Evaluation Readability
                                               Lookup INstrument (MERLIN) postage
WHAT THE OIG FOUND:                            due results and develop automated
U.S. Postal Service mail verification          tools that managers can use to monitor
procedures were not always adequate            and evaluate DMU staffing and
to ensure that business mailings               scheduling.
contained sufficient postage or met
Postal Service specifications. We              WHAT MANAGEMENT SAID:
project that revenue loss was at least         Management agreed with the findings,
$10.3 million over the 78-day audit            recommendations and monetary impact.
period. Postal Service employees also          Management is working on solutions to
sometimes overrode system-generated            automate mail verification, acceptance
notifications that mailings did not contain    and induction. The Postal Service
sufficient postage or meet specifications      continues to conduct field training based
without verifying whether these                on identified needs. In addition, the
notifications were valid.                      Postal Service is developing a process
                                               to notify managers of MERLIN postage
We also noted that DMU staffing was            due overrides and field staffing tools for
inconsistent and did not always align          business mail acceptance.
with mailers’ production levels, resulting
in idle staff time at some locations and       AUDITORS’ COMMENTS:
heavy workload at others.                      Management’s comments are
                                               responsive to the recommendations and
WHAT THE OIG RECOMMENDED:                      corrective actions should resolve the
We recommended that management                 issues identified in the report.
review automation efforts to date to
identify improvements they can make in         Link to review the entire report
January 12, 2012

MEMORANDUM FOR:                   PRITHA N. MEHRA
                                  VICE PRESIDENT, MAIL ENTRY AND PAYMENT
                                  TECHNOLOGIES




FROM:                             Darrell E. Benjamin, Jr.
                                  Deputy Assistant Inspector General
                                   for Revenue and Systems

SUBJECT:                          Audit Report – Mail Verification Procedures at Detached Mail
                                  Units (Report Number MS-AR-12-002)

This report presents the results of our audit of mail verification procedures at detached
mail units (Project Number 11RG013MS000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Janet Sorensen, director,
Marketing and Service,1 or me at 703-248-2100.

Attachments

cc: Ellis A. Burgoyne
    Deborah M. Giannoni-Jackson
    Corporate Audit and Response Management




1
    Formerly Sales and Service.
Mail Verification Procedures at Detached Mail Units                                                                MS-AR-12-002



                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Revenue Deficiencies...................................................................................................... 2

Streamlined Acceptance ................................................................................................. 3

DMU Staffing ................................................................................................................... 4

Recommendations .......................................................................................................... 6

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 7

Appendix A: Additional Information ................................................................................. 8

   Background ................................................................................................................. 8

   Objective, Scope, and Methodology ............................................................................ 9

   Prior Audit Coverage ................................................................................................. 10

Appendix B: Monetary and Other Impacts ..................................................................... 13

Appendix C: Mail Verification Conditions....................................................................... 14

Appendix D: Statistical Sample Design and Results ..................................................... 16

Appendix E: Management’s Comments ........................................................................ 18
Mail Verification Procedures at Detached Mail Units                                                         MS-AR-12-002



Introduction

This report presents the results of our audit of mail verification procedures at detached
mail units (DMU) (Project Number 11RG013MS000). Our audit objective was to
evaluate mail verification procedures at DMUs for Standard and First-Class Mail to
determine whether the U.S. Postal Service received the appropriate postage and
whether mailings met Postal Service specifications. We randomly selected 30 DMUs
from a universe of the 250 largest revenue-producing DMUs in the nation. This
self-initiated audit addresses financial and operational risks. See Appendix A for
additional information about this audit.

Before accepting business mail, Postal Service employees verify that it qualifies for the
class and postage rate paid. When there is an operational advantage, the
Postal Service establishes an on-site mail acceptance unit at the mailer/mailing agent’s
production facility. These units are designated as DMUs. In fiscal year (FY) 2011,
business (commercial) mail revenue accounted for $47.9 billion of the $66.1 billion total
revenue. The DMUs, of which there were approximately 1,279 nationwide, generated
$27.0 billion of revenue, or 40.8 percent of total revenue in FY 2011. Standard and
First-Class Mail® revenue from DMUs was $13.6 billion and $11.3 billion, respectively.
The remaining $2.1 billion of revenue at the DMUs consisted of Periodicals, Package
Services, and Parcel Post.

Conclusion

Postal Service mail verification procedures were not always adequate to ensure that
business mailings contained sufficient postage or met Postal Service specifications.
Specifically, at nine of the 30 DMUs we audited the Postal Service accepted mailings
that did not have sufficient postage or did not meet Postal Service specifications. These
conditions occurred because acceptance employees overlooked mail preparation
errors, relied too heavily on mailers when verifying mail, and were not aware of the
in-depth mail verification procedures. The lost revenue associated with the mailings we
verified totaled $15,283. We project that revenue losses were at least $10.3 million over
the 78-day audit period. Additionally, we have no reason to believe that revenue loss is
limited to the 78-day audit period. We also identified $1.8 million2 of revenue at risk at
two DMUs where Postal Service employees overrode Mail Evaluation Readability
Lookup INstrument (MERLIN) 3 results without verifying whether the mail deficiencies
identified by MERLIN were valid. See Appendix B for our monetary impact calculation.

We also observed that DMU staffing was inconsistent and did not always align with
mailers’ production levels, resulting in idle staff time at some locations and heavy
workload at others. This condition occurred because staffing DMUs is complex and
management does not have readily available tools to properly match DMU staffing with
mailers’ production schedules.

2
    We did not project the revenue at risk to the sampled universe.
3
    A tool the Postal Service uses to assist with the verification and acceptance of discounted mailings.
                                                                1
Mail Verification Procedures at Detached Mail Units                                                   MS-AR-12-002



Revenue Deficiencies

Employees performing mail verification procedures did not detect mailings with
insufficient postage or those that did not meet Postal Service mailing standards at nine
of the 30 units. These conditions occurred due to employee oversight while visually
scanning the mail for errors and because acceptance employees relied heavily on
mailers when verifying mail and were not aware of the in-depth mail verification
procedures. As a result, the Postal Service has increased risk of revenue loss and
additional processing costs. The revenue loss associated with the mailings we verified
totaled $15,283. We project that revenue loss is at least $10.3 million over the 78-day
audit period.

In addition, Postal Service employees sometimes overrode system notifications that
stated mailings were not compliant with requirements. We identified $1.8 million4 of
revenue at risk at three DMUs. Postal Service employees at two of the DMUs overrode
MERLIN results without verifying whether the mail deficiencies identified by MERLIN
were valid. See Appendix C for a list of mail verification issues we identified.

Specifically, we identified the following:

   Mailing Standards Not Met: While conducting initial verifications5 business mail
    acceptance employees did not always detect mail that did not meet required mailing
    standards. For example, at one site acceptance employees charged a mailer letter
    rates for mail that exceed letter dimensions,6 the mailer should have paid flat rates.
    At another site, we found metered mail with missing postage amounts.

   Mailpiece Discrepancies: At one site we noticed that the mailer’s production report7
    exceeded the number of pieces listed and paid for on the postage statement. The
    acceptance employee accepted the mailer’s explanation that spoilage caused the
    discrepancy instead of performing an in-depth verification. We performed a
    mailpiece count8 and determined that the number of mailpieces in the mailing
    exceeded the number of mailpieces on the postage statement. At another site, an
    acceptance employee approved a mailing using sample mailpieces the mailer
    provided, but we identified issues with the barcode location when we independently
    sampled mailpieces.

   Optional Procedures (OP): An acceptance employee did not detect a postage
    shortage because the OP9 agreement did not require the mail to be weight verified.
    We weighed sample mail at one DMU under an OP agreement and identified
4
  We did not project the revenue at risk to the sampled universe.
5
  Acceptance employees must perform an initial verification on all mailings by completing a checklist that includes
such things as review of supporting documents and a cursory review of the mail.
6
  Domestic Mail Manual 300, Section 101.1.1.b.
7
  This report is also known as the Postal Service Qualification Report and lists, by ZIP Code, the number of
mailpieces qualifying for each rate by presort level.
8
  We performed a mailpiece count using Postal Service (PS) Form 8040, Bulk Mail Acceptance Work Sheet.
9
  The OP mailing system allows the Postal Service to verify and accept identical weight and/or non-identical weight
permit mail by means other than the standard verification procedure of weighing mail in bulk.


                                                          2
Mail Verification Procedures at Detached Mail Units                                                    MS-AR-12-002



     underpaid postage. Fourteen of the 30 DMUs we audited operated under OP
     agreements.

    MERLIN Overrides: Employees at two units overrode MERLIN results that required
     additional postage for the mailings tested without verifying whether the results were
     valid. We noted that there is no centralized report available to alert management if
     acceptance clerks override MERLIN postage due results.

The conditions occurred for a variety of reasons. First, as we observed during this audit
and in a prior audit,10 acceptance employees relied too heavily on mailers when
verifying mail. Placing Postal Service employees on-site at the mailers’ place of
business to conduct compliance activities can result in added risk and a situation of
undue influence on the employees. Second, mail acceptance procedures rely heavily on
clerk knowledge and are subject to human error. Acceptance employees we interviewed
were not always aware of in-depth mail verification procedures.11 Mail acceptance is a
complex labor-intensive process and procedures can vary among DMUs depending on
type of mail, mailer processes, special agreements, and other factors. While further
training and monitoring of acceptance employees could continue to improve mail
verification, it remains challenging for Postal Service employees to be knowledgeable
about the myriad of Postal Service mailing requirements and for the Postal Service to
create all-inclusive checklists and job aids.

Streamlined Acceptance

The Postal Service is moving toward automating the mail acceptance process using
streamlined acceptance and an electronic induction procedure.12 The Postal Service
plans to leverage existing Intelligent Mail container barcodes and electronic
documentation to streamline the verification for payment of the mail, destination entry
point discounts and ensuring containers are inducted into the correct destination facility.
The Postal Service is currently conducting a pilot. Electronic induction can reduce the
dependence on paper-driven processes, directly reducing the amount of manual
validations conducted on shipments at destination plants and reducing paperwork and
workhours at DMUs. Electronic induction can also allow for more advanced sampling,
verification, and reconciliation capabilities.

Technology provides the opportunity to establish more effective and efficient mail
verification processes, rather than automating legacy processes. A properly designed
automated business mail entry verification processes could simplify mail acceptance
procedures, reduce revenue loss, and reduce DMU staffing requirements. Additionally,
a recent audit report13 noted that the Postal Service plans for automated verification of
mail during processing will require increased mailer participation in full-service

10
   Mail Verification Procedures at Long Island Detached Mail Units (Report Number MS-AR-11-003, dated
May 26, 2011).
11
   In-depth procedures include verification steps beyond the initial steps that include more extensive review of sample
mail and supporting documents.
12
   Previously this initiative was called “Seamless Acceptance.”
13
   Strategic Approaches to Revenue Protection (Report Number MS-AR-11-007, dated September 20, 2011).


                                                           3
Mail Verification Procedures at Detached Mail Units                                                MS-AR-12-002



Intelligent Mail barcode (IMb) technology. However, as shown in Table 1, less than half
of the mail volume in FY 2011 was Full-Service IMb compliant; therefore, the Postal
Service will need to continue addressing mail verification deficiencies through training
and oversight while seeking to increase Full-Service IMb participation.


                        Table 1. Full-Service Intelligent Mail Compliance14

                                            Total                 Full-Service
                                                                                    Full-Service
                 Fiscal Year             Mailpieces               Mailpieces
                                                                                      Volume
                                          (billions)               (billions)
                     2011                    133.2                      51.5              39%
             Source: PostalOne!

DMU Staffing

DMU staffing did not always align with mailers’ production. For example, two mail
acceptance employees at one DMU we visited did not have any mail to verify during
their work tour. In contrast, a mail acceptance employee at another DMU had
31 mailings to verify during his work tour. The table below shows that the number of
mailings clerks verified varied significantly among the units we audited.


                                 Table 2. Mailings Verified per Clerks

                            Mailings Verified                    Number of DMUs*
                                      0-2                                     8
                                      3-5                                     8
                                      6-9                                     8
                                     10-31                                    5
                      Source: PostalOne!
                    * We excluded one site that is not permanently staffed.

At the 16 DMUs where clerks performed five or fewer mail verifications, supervisors
stated that they base staffing on set schedules, not mailer production schedules. Four of
the 16 supervisors for these units stated that they determine staffing needs based on
employee bids for locations and tours. Three of the 16 supervisors stated they depend
on the mailer or clerk to notify them if a clerk is not needed because of light workload.

Staffing inefficiencies occurred because staffing DMUs is complex and management
does not have readily available tools to properly match DMU staffing needs with mailers’
production schedules. The postmaster or supervisor responsible for creating,
maintaining, and updating DMU staffing schedules15 must obtain weekly production
schedules from the mailers as far in advance as possible. DMU production schedules
14
     Commercial mail volume consisting of First-Class and Standard Mail and Periodicals.
15
     Handbook DM-109, Business Mail Acceptance Section 2-3.4, Scheduling for Projected Production, March 2010.


                                                           4
Mail Verification Procedures at Detached Mail Units                                                    MS-AR-12-002



are not uniform, may be difficult to interpret, and are subject to unscheduled changes.
The postmaster or supervisor must also take into account other factors such as mail
transportation requirements and Postal Service mail processes and transportation
equipment availability. Additionally, verification procedures may vary significantly among
DMUs according to the types of mailings processed and other factors such as special
agreements.

The Postal Service does not have nationally established systems or workhour metrics
that postmasters and supervisors can use to make staffing decisions and gauge staffing
inefficiencies for DMU acceptance clerks. Such tools are available in other Postal
Service operations areas. For example:

    Postal Service delivery supervisors can use the Delivery Operations Information
     Systems and Post Office managers can use the Windows Operations Survey to
     analyze data and make decisions that increase efficiency.

    The Postal Service has a Customer Service Variance (CSV) management tool that
     captures workhours used to right-size staffing estimates for mail verification. The
     system shows mail acceptance takes on average approximately 28 minutes.
     However, CSV uses Labor Distribution Code (LDC) 4816 employee hours and does
     not factor in LDC 7917 DMU employee hours.18

The Postal Service can set performance metrics to gauge unit performance. The
metrics can take into account known information such as the number and type of
verifications the clerks are performing. The Postal Service can also discuss with mailers
how to better align Postal Service resources with mailer needs. Since the Postal Service
establishes an on-site acceptance unit at the mailer/mailing agent’s production facility
when there is an operational advantage to the Postal Service, it is also reasonable for
the Postal Service to periodically examine whether changes in mail volume at a DMU
negate the operational advantage of the arrangement. The Postal Service can engage
mailers in this discussion and jointly look for ways to better align Postal Service
resources with mailer needs. Discussions might include better coordination of staffing
resources and verification schedules.




16
   Customer Service/Administrative/Miscellaneous.
17
   Mailing Requirements and Business Mail Entry.
18
   An LDC is a 2-digit code that identifies major work assignments of employees. The first number identifies the
function within an office and the second identifies the type of activity being performed. LDC 48 includes
non-supervisory hours of customer service employees assigned to dispatch activities and miscellaneous retail
activities at stations, branches, and associate offices. LDC 79 workhours are part of the marketing and
communications function and are used for mailing requirements and business mail entry activities.


                                                          5
Mail Verification Procedures at Detached Mail Units                           MS-AR-12-002




Recommendations

We recommend the vice president, Mail Entry and Payment Technologies:

1. Review automation efforts to date to identify improvements that can be made in the
   interim while mailers continue to implement Intelligent Mail barcode technologies.

2. Continue ongoing mail verification training efforts while detached mail unit
   employees continue to use manual mail verification processes.

3. Enhance automated systems to notify managers when acceptance employees
   override Mail Evaluation Readability Lookup INstrument results.

4. Develop and implement automated tools that managers can use to monitor and
   evaluate detached mail unit staffing and scheduling.

Management’s Comments

Management concurred with the recommendations and monetary impact. Regarding
recommendation 1, management agreed that additional tools are needed to increase
mailer participation in Full-Service Intelligent Mail. Management is developing an online
tool that will enable small business mailers to upload address files to match with
delivery point validation, Move Update, Intelligent Mailpiece and tray barcodes, and
sortation. Management said that electronic induction will provide an automated solution
to replace hard copy PS Forms 8125, Plant-Verified Drop Shipment (PVDS) Verification
and Clearance. The Postal Service is designing seamless acceptance to automate
acceptance and verification processes. The Postal Service plans to implement all these
solutions by June 2013.

Regarding recommendation 2, management stated the Postal Service continues to
conduct field training sessions based on indentified needs. Management is working with
the Postal Service Sarbanes-Oxley management office to developed specialized
standard operating plans and job aids for acceptance and verification procedures. This
is an ongoing effort that will continue through January 2013.

Regarding recommendation 3, management agreed to develop a process by June 2013
for notifying managers when employees override MERLIN results.

Regarding recommendation 4, management stated that the Postal Service is currently
developing field staffing tools for business mail acceptance. Management expects to
implement these tools by June 2013.

See Appendix E for management’s comments in their entirety.




                                                      6
Mail Verification Procedures at Detached Mail Units                         MS-AR-12-002




Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and corrective actions should resolve
the issues identified in the report. The OIG considers all the recommendations
significant, and therefore requires OIG concurrence before closure. Consequently, the
OIG requests written confirmation when corrective actions are completed. These
recommendations should not be closed in the Postal Service’s follow-up tracking
system until the OIG provides written confirmation that the recommendations can be
closed.




                                                      7
Mail Verification Procedures at Detached Mail Units                                             MS-AR-12-002




                                 Appendix A: Additional Information

Background

The Postal Service established the mail verification process to ensure that business
mailers prepare their mailings in accordance with standards for the rate at which the
mailing is presented, including piece counts, class, and postage. When there is an
operational advantage, the Postal Service establishes an on-site acceptance unit at the
mailer/mailing agent’s production facility. These units are designated as DMUs. To
participate in on-site acceptance, the mailer/mailing agent must agree to establish a
secure, safe working environment for the DMU employees. This normally includes an
office or work location within view of the shipping dock. Safeguards must be provided
for Postal Service equipment such as computers, MERLIN, revenue-protection seals,
and financial documents.

The primary role for a DMU is to ensure:

     A fair and equitable application of Postal Service rules and standards for all mailers.

     Timely collection and reporting of all Postal Service revenue.

     Proper preparation standards of the mailed product for the class and level of presort
      or transportation discount claimed.

Mail verification at DMUs consists of initial and in-depth verifications. During initial
verification, acceptance employees perform a cursory review of the mailing. This
includes checking the mail in and reviewing the mailer’s account to verify that the mailer
paid all appropriate fees and sufficient funds are available. Acceptance employees must
also verify that the mailpiece count on the postage statements matches the U.S. Postal
Service Qualification Report. Acceptance employees must perform an in-depth
verification when they find problems with the mail during initial verification or when
prompted by the PostalOne! system. In-depth verification includes procedures such as
presort and mailpiece count verifications, shortpaid meter sampling, and automation
mail compliance reviews.

MERLIN provides a valuable automated verification of letter-size and flat-size mailings
against mailing standards. However the system relies on acceptance clerks to properly
enter manual data, select the sample mailpieces to be tested, interpret MERLIN reports,
confirm errors, and either override or submit MERLIN results.

In its FY 2011 Report on Internal Control over Financial Reporting and Compliance the
Postal Service’s independent auditor identified business mail acceptance as a control
deficiency. Additionally, in a previous audit report19 we determined that revenue loss will
continue to occur until the Postal Service automates verification procedures.
19
     Strategic Approaches to Revenue Protection (Report Number MS-AR-11-007, dated September 30, 2011).


                                                        8
Mail Verification Procedures at Detached Mail Units                                                      MS-AR-12-002




Performance Based Verifications (PBV)

PBV20 is a PostalOne! feature that uses a mathematical framework to determine
In-Depth Verification frequency and mailpiece sample size. PBV analyzes mailers’
historical mail preparation performance. For mailers who historically perform well (such
as “no errors identified”), PBV reduces the frequency of required In-Depth Verification
tests. PBV increases the frequency of required In-Depth Verification tests for mailers
that historically perform poorly. The effectiveness of PBV depends on acceptance
employees electronically recording all errors21 in PostalOne!.

Objective, Scope, and Methodology

Our objective was to evaluate mail verification procedures for Standard and First-Class
Mail at DMUs to determine whether the Postal Service received the appropriate postage
and whether mailings met required Postal Service specifications. To accomplish our
objective, we randomly selected 30 DMUs from a universe of the 250 largest
revenue-producing DMUs in the nation.22 See Appendix D for our sample design and
projections.

In addition, we reviewed guidance for business mail acceptance and verification
procedures and interviewed key Postal Service and mailer personnel at the selected
DMUs to gain an understanding of existing processes and management controls. We
verified selected mailings and followed existing quality control procedures to determine
the extent of revenue loss. We analyzed Postal Service system-generated reports and
compared data between mailers and the Postal Service. Finally, we reviewed postage
statements and other supporting documents.

We conducted this performance audit from March 2011 through January 2012 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on December 1, 2011, and included
their comments where appropriate.

We assessed the reliability of computer-generated data by verifying computer records to
source documents. We determined that the data were sufficiently reliable for the
purposes of this report.



20
   Handbook DM-109, Section 3-4.1.
21
   Handbook DM-109, Section 3-4.2.
22
   The Standard and First-Class Mail revenue in this universe ranged from $22 million to $580 million.


                                                          9
    Mail Verification Procedures at Detached Mail Units                                   MS-AR-12-002



    Prior Audit Coverage

                      Report           Final Report        Monetary
Report Title          Number               Date             Impact            Report Results
Strategic         MA-AR-11-007           9/30/2011             None   The Postal Service continues to
Approaches to                                                         address revenue protection
Revenue                                                               through technological initiatives
Protection                                                            as well as checklists, quick
                                                                      service guides, and training for
                                                                      clerks. However, revenue loss
                                                                      will continue to occur until the
                                                                      Postal Service replaces current
                                                                      manual processes with
                                                                      automated verification
                                                                      procedures. Management
                                                                      agreed with our
                                                                      recommendation overall and
                                                                      provided planned actions and a
                                                                      planned completion date.
Mail              MS-AR-11-003           5/26/2011             None   Employees at two of the four
Verification                                                          DMUs we audited did not
Procedures at                                                         always follow business mail
Long Island                                                           verification procedures. The
Detached Mail                                                         report recommended that
Units                                                                 management instruct DMU
                                                                      employees to follow acceptance
                                                                      procedures despite customer
                                                                      pressure and conduct a “lesson
                                                                      learned” meeting between the
                                                                      manager, business mail entry,
                                                                      and DMU employees regarding
                                                                      the issues identified in the
                                                                      report. Management agreed
                                                                      with the finding and
                                                                      recommendations.




                                                          10
     Mail Verification Procedures at Detached Mail Units                                      MS-AR-12-002




                       Report           Final Report        Monetary
 Report Title          Number               Date             Impact             Report Results
Fiscal Year        FF-AR-11-006           1/20/2011             None   The Postal Service did not
2010 Financial                                                         comply with key financial
Installation                                                           reporting controls for business
Audit –                                                                mail acceptance and verification
Business Mail                                                          processes and procedures.
Entry Units                                                            Throughout the year the Postal
                                                                       Service implemented various
                                                                       actions in a concerted effort to
                                                                       improve compliance. As a
                                                                       result, the Postal Service’s level
                                                                       of compliance with these key
                                                                       controls increased toward the
                                                                       end of the fiscal year compared
                                                                       to the first half of the fiscal year,
                                                                       helping to ensure that
                                                                       customers were appropriately
                                                                       charged and revenues were
                                                                       recognized.
Full-Service       DA-MA-11-001          11/23/2010             None   Surveys of Full-Service
Intelligent Mail       (R)                                             Intelligent Mail participants
Program                                                                disclosed mixed results for
Customer                                                               program usefulness. The
Satisfaction                                                           primary reason mailers did not
                                                                       participate in the Full-Service
                                                                       Program were high start-up
                                                                       costs and limited program
                                                                       benefits. The report
                                                                       recommended the Postal
                                                                       Service emphasize the benefits
                                                                       of Full-Service Intelligent Mail to
                                                                       business mailers; consider
                                                                       offering program incentives to
                                                                       offset program start-up costs;
                                                                       and provide more training to
                                                                       business mail entry and
                                                                       PostalOne! Help Desk
                                                                       employees. Management
                                                                       generally agreed with the
                                                                       findings and recommendations.
Staten Island      MS-AR-10-005           8/30/2010             None   We identified multiple mail
and Brooklyn                                                           verification issues at the Staten
Business Mail                                                          Island Business Mail Entry Unit
Entry Units                                                            (BMEU) and an issue at the
Mail                                                                   Brooklyn BMEU related to the
Verification                                                           MERLIN Selection Matrix.
Procedures                                                             Management agreed with the
                                                                       findings and recommendations.


                                                           11
     Mail Verification Procedures at Detached Mail Units                                       MS-AR-12-002




                       Report           Final Report        Monetary
 Report Title          Number               Date             Impact                Report Results
Fiscal Year        FF-AR-10-205           8/5/2010              $355,107   The February 2010 PostalOne!
2010                                                                       outage impacted mail
PostalOne!                                                                 acceptance operations and
Outage                                                                     revenue collection efforts
                                                                           nationwide. We determined the
                                                                           Postal Service was not
                                                                           adequately prepared to
                                                                           manually support operations
                                                                           during such an extended
                                                                           outage. Management agreed to
                                                                           update its Postal One!
                                                                           contingency plan to align with
                                                                           key financial controls.
Plant-Verified     MS-AR-10-001           2/9/2010               None      Controls were not adequate to
Drop                                                                       prevent mailers from adding
Shipment                                                                   mail en route to the destination
Controls                                                                   Postal Service facility and to
                                                                           ensure the Postal Service
                                                                           collects all revenues due from
                                                                           Plant-Verified Drop Shipment
                                                                           (PVDS). The report
                                                                           recommended the Postal
                                                                           Service weight verify all drop
                                                                           shipments, provide scales at
                                                                           PVDS areas, train employees
                                                                           and supervisor responsible for
                                                                           verifying or overseeing the
                                                                           verification of PVDS at
                                                                           destination facilities, and
                                                                           provide an electronic reporting
                                                                           solution to compare information
                                                                           at origin and destination. We
                                                                           resolved all but one
                                                                           recommendation through the
                                                                           resolution process. The
                                                                           remaining recommendation
                                                                           remains open pending
                                                                           December 2012 completion.




                                                           12
Mail Verification Procedures at Detached Mail Units                                                     MS-AR-12-002



                             Appendix B: Monetary and Other Impacts

                                                Monetary Impact

              Finding                         Impact Category                                Amount
           DMU Verification             Recoverable and Unrecoverable                      $10.3 million
             Procedures                        Revenue Loss23

We calculated the revenue loss at DMUs by employing a stratified three-stage random
sample of postage statements. The sample design allowed statistical projection of the
amount of revenue loss over the 78-day period (April 27–July 13, 2011) of the review.
See Appendix D for additional information regarding our sample design and projections.

                                                   Other Impact

              Finding                             Impact Category                            Amount
           DMU Verification                       Revenue at Risk24                         $1.8 million
             Procedures




23
   Amount Postal Service is (or was) entitled to receive but was underpaid or not realized because policies,
procedures, agreements, requirements, or good business practices were lacking or not followed. May be recoverable
or unrecoverable. May apply to historical events or a future period (in the sense perceived future losses may be
prevented by the implementation of a recommendation).
24
   Revenue the Postal Service is at risk of losing (for example, when a mailer seeks alternative solutions for services
currently provided by the Postal Service).


                                                          13
Mail Verification Procedures at Detached Mail Units                              MS-AR-12-002



                           Appendix C: Mail Verification Conditions


                  Condition                           Revenue Loss     Other Impact
The length of the mailpiece exceeded                            $197            None
the maximum letter standards of 11.5.
We found seven metered mailpieces                              $249             None
with missing rate markings through
visual inspection of tray samples.
The Postal Service Qualification Report                        $133             None
had 18,670 mailpieces and the postage
statement showed 16,561. The
acceptance employee relied on a
verbal statement from the mailer that
the 2,109 mailpiece discrepancy
involved spoiled pieces. We conducted
an in-depth verification and found 767
additional mailpieces.
Mailer claimed automation letter                              $5,402            None
discount, but the sample mailpieces we
tested with a manual template and on
MERLIN failed the barcode location
verification.
Clerk overwrote MERLIN $78,860                                 None        $78,860 –
scheme error without verifying its                                     revenue at risk
validity.
The clerk overrode a MERLIN presort                            None      $1,597,240 –
verification failure without verifying                                 revenue at risk
whether the errors were valid.
The mailer’s mailpiece count was                              $6,230            None
approximately 6.1 percent less than
what the auditors computed on
PS Form 8040.
Full trays of automation letters were                          $757             None
banded (not allowed for discount).
Verification Results Storage Record is                         None             None
not randomly selecting mail for
verification at this continuous mailing
site.




                                                      14
Mail Verification Procedures at Detached Mail Units                               MS-AR-12-002



                Condition                             Revenue Loss     Other Impact
Although there was room in the trays,                                      $143,479 –
the 5-digit and 3-digit trays did not                                   revenue at risk
contain the required minimum number
of pieces to obtain the automation rate.
As a result of our audit, DMU personnel
obtained a waiver from the district
business mail entry manager to allow
this mailer to present mail in this
manner for future mailings.
The mailer’s mailpiece count was about                        $2,315             None
6.6 percent less than what the auditors
computed.




                                                      15
Mail Verification Procedures at Detached Mail Units                           MS-AR-12-002



                    Appendix D: Statistical Sample Design and Results

Audit Universe

The audit universe consisted of all postage statements tendered over the 78-day period,
at the 250 highest First-Class and Standard Mail revenue DMUs for FY 2010. This
segment represented approximately 80 percent of all DMU revenue for FY 2010. The
total number of postage statements in the sampling universe was 190,184. We obtained
the universe information from PostalOne!.

Sample Design

We decided resources available would allow us to visit 30 randomly selected DMUs
over the 78-day period. We divided the chosen DMU population of 250 into two strata.
Stratum 1 consisted of 63 DMUs for which the revenue in FY 2010 was $100 million or
greater. Stratum 2 consisted of the remaining 187 DMUs. We decided to sample 19 of
the DMUs in Stratum 1 and 11 of the DMUs in Stratum 2. We followed identical steps
within each stratum.

We used Excel’s random number generator to select the DMUs from each stratum. This
process represented the first stage of the three-stage random selection process. For
each randomly selected DMU, we scheduled a site visit on a randomly selected day
within the 78-day period. This process represented the second stage of the three-stage
random selection process. Finally, on the day of each site visit, we randomly selected
as many mailings for review as we were able to accomplish. During meetings with
Postal Service officials, management expressed concern regarding our methodology we
used to select mailings for review. We believe our methodology is effectively random
and satisfies the applicable statistical theory of our sample design. We reviewed
162 postage statements associated with the randomly selected mailings over the
78-day period.

For each randomly selected mailing, we independently verified the mailing using the
Postal Service standard required mail verification procedures for the type of mailing at
hand. We recorded the amount of additional postage due, if any, for each of the
randomly selected and verified mailings. For our purposes, the additional postage due,
and uncollected, represented revenue loss.

Statistical Projections of the Sample Data

For the purpose of statistically projecting the total revenue leakage, for the DMU
population over the 78-day period, we used the “Three-Stage Unrestricted” variable
appraisal module of RAT-STATS, a statistical analysis software package developed and
maintained by the Health and Human Services OIG. We did this for the strata
individually and then combined the projections of the individual strata into an overall
projection for the 250 DMUs in the population. We performed this final step using the
“Stratified Multistage” variable appraisal module of RAT-STATS.



                                                      16
Mail Verification Procedures at Detached Mail Units                          MS-AR-12-002




Based on projection of the sample results, the point estimate of the revenue leakage for
the 250 DMUs over the 78-day period was $45,058,730. The lower bound of a
two-sided 95 percent confidence interval was -$8,083,480, and the upper bound of a
two-sided 95 percent confidence interval was $98,200,940. Since we directly measured
$15,285 of revenue leakage in our sample, this amount becomes the real world lower
bound.

Since the sampling precision achieved at the 95 percent confidence level does not meet
our internally imposed standard of +-20 percent relative or better, we opt to
conservatively report the lower bound of a one-sided 90 percent confidence interval as
the monetary impact for this audit. RAT-STATS calculated this amount to be
$10,310,906; therefore, we can be 90 percent confident that the revenue leakage in the
population over the 78-day period is at least $10,310,906. We did not expand our
sample size to improve the sample precision because this would have required
significant additional resources and we do not believe our findings or recommendations
would have been materially affected.

By similar reasoning, we can be 90 percent confident the revenue leakage in the
population, over the 78-day period, is no greater than $79,806,554.




                                                      17
Mail Verification Procedures at Detached Mail Units             MS-AR-12-002



                            Appendix E: Management’s Comments




                                                      18
Mail Verification Procedures at Detached Mail Units        MS-AR-12-002




                                                      19
Mail Verification Procedures at Detached Mail Units        MS-AR-12-002




                                                      20
Mail Verification Procedures at Detached Mail Units        MS-AR-12-002




                                                      21
